                                        SOCIAL SECURITY

MEMORANDUM

Date:      August 5, 2002                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Management Advisory Report: Summary of Financial-Related Audits of Representative
           Payees for the Social Security Administration (A-13-00-10065)


           The attached final report presents the results of our review. Our objectives were to
           (1) summarize common findings and recommendations from the six Office of the
           Inspector General (OIG) financial-related audits of representative payees (Rep
           Payees), (2) identify significant issues related to the Social Security Administration’s
           (SSA) oversight of Rep Payees, and (3) determine the status of SSA’s corrective
           actions taken in response to the OIG's December 13, 2000 memorandum, On-site
           Reviews of Representative Payees.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                            James G. Huse, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  SUMMARY OF FINANCIAL-RELATED
    AUDITS OF REPRESENTATIVE
       PAYEES FOR THE SOCIAL
     SECURITY ADMINISTRATION


    August 2002   A-13-00-10065




  MANAGEMENT
ADVISORY REPORT
                                    `Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                            Executive Summary
OBJECTIVES

Our objectives were to (1) summarize common findings and recommendations from the
six Office of the Inspector General (OIG) financial-related audits of representative
payees (Rep Payees), (2) identify significant issues related to the Social Security
Administration’s (SSA) oversight of Rep Payees, and (3) determine the status of SSA’s
corrective actions taken in response to the OIG's December 13, 2000 memorandum,
On-site Reviews of Representative Payees.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
                                                                             1
authority to appoint Rep Payees to receive and manage these beneficiaries’ payments.
A Rep Payee may be an individual or an organization. SSA selects Rep Payees for
Old-Age, Survivors and Disability Insurance beneficiaries or Supplemental Security
Income recipients when representative payments would serve the individual’s interests.
Rep Payees are responsible for using benefits in the beneficiary’s best interests.

OIG Financial-Related Audits of Representative Payees

We performed six financial-related audits of Rep Payees (Appendix A). We audited the
following three types of Rep Payees:

1. organizational Rep Payees (fee-for-service2),
2. organizational Rep Payees (non-fee-for-service), and
3. individual Rep Payees (serving more than 50 beneficiaries).

The objectives of the audits were to determine whether the Rep Payees (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
SSA policies and procedures.




1
  The term “beneficiary” is used generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.
2
 The Social Security Act permits some organizational Rep Payees to collect a fee for the services they
perform. These organizations are called “fee-for-service” Rep Payees. The fee is compensation for
providing Rep Payee services.


Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)                             i
RESULTS OF REVIEW

Financial-Related Audits of Representative Payees Reveal Some Problematic
Conditions
                                                                3
Of the six Rep Payees audited, we determined that four Rep Payees generally (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured that Social Security benefits were used and accounted for in accordance
with SSA’s policies and procedures. The two4 remaining Rep Payees had problems
meeting both of these objectives.

Specifically, we found:

·   Two Rep Payees had notable accounting system internal control weaknesses.

·   Five Rep Payees failed to monitor and report changes that affected benefit eligibility,
    which resulted in about $880,537 in benefit overpayments for 272 beneficiaries
    between September 1999 and August 2000.

·   Two Rep Payees improperly handled beneficiaries’ conserved funds. Conserved
    funds were either held in a non-interest bearing account or were not returned to SSA
    when the Rep Payee was no longer serving as the Rep Payee.

·   Two Rep Payees improperly charged fees totaling $874.

In addition, for five of the Rep Payees, SSA incorrectly recorded in its Representative
Payee System (RPS) the number of beneficiaries in the Rep Payee’s care and/or had
listed the Rep Payee multiple times in the RPS.

Significant Issues Related to SSA’s Oversight of the Representative Payment
Program

We identified several issues related to SSA’s oversight of Rep Payees that warrant the
attention of Agency management. These issues concern the potential benefits of using
                  5
stored value cards (SVC) or similar technology and problems associated with the
annual Representative Payee Reports (RPR).



3
  Hale Barnard Services, Appendix A-1; Individual Rep Payee, Georgia, Appendix A-2; Organizational Rep
Payee, Michigan, Appendix A-3; Outreach, Inc., Appendix A-4
.
4
  Baltimore City Department of Social Services, Appendix A-5, Individual Rep Payee, Oklahoma, Appendix
A-6.
5
 An SVC is a prepaid spending card that can be used everywhere a credit card is accepted. SVCs do not
have a line of credit and can be used to make automated teller machine withdrawals.


Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)                ii
    Stored Value Cards – One of the key elements in the President’s Management and
Performance Plan is “electronic government” (e-Government).6 The Office of
Management and Budget (OMB) has established a task force to begin implementing
the President’s initiative and is requesting agencies to identify areas where
e-Government would be beneficial. We believe the use of SVCs or similar technology
is an e-Government opportunity that SSA should consider for its Representative
Payment Program. Other Federal agencies have used SVC technology for several
years. For example, the U.S. Department of Agriculture is issuing over 80 percent of its
food stamp benefits using this technology instead of coupon books. Also, the U.S.
Army is using SVCs to disburse initial pay to basic trainees.

Given the nature of the problematic conditions we identified during our six audits, we
believe SSA should consider the use of SVCs to provide improved safeguards over how
Rep Payees spend and account for beneficiary payments. Specifically, SVCs could
enable SSA to obtain spending information directly from the SVC/credit card company
on the type and amount of expenses the Rep Payee incurred. This information could
be available electronically and could be reviewed at various intervals (weekly, monthly,
and annually).

Using SVCs could also result in significant administrative savings to SSA. SVCs could
eliminate the need for about 7 million RPRs that are mailed annually and processed at
a cost of about $52 million. This could also eliminate the costs associated with storing
and retrieving paper RPRs.

   Representative Payee Reports – During our reviews, we found several completed
RPRs that had questionable information (that is, no reported expenses or reported
excess conserved funds). In addition, we found that SSA could not always retrieve
completed RPRs. We requested the most recently completed RPRs for
167 beneficiaries. However, SSA only provided 67. Therefore, for the remaining 100,
we could not determine whether the Rep Payees properly submitted RPRs.

Status of SSA’s Corrective Actions Taken in Response to OIG memorandum,
On-site Reviews of Representative Payees

While planning our financial-related audits, we identified and reported two conditions to
SSA on December 13, 2000 that warranted the immediate attention of SSA
management. They involved:

1. SSA’s use of standardized interview questions during its on-site reviews of Rep
   Payees without approval from OMB.

2. Language on Rep Payee forms giving SSA the right to review the Rep Payees’
   financial records when needed.


6
 E-Government is the use of digital technologies to transform Government operations to improve
effectiveness, efficiency, and service delivery.


Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)             iii
We recommended that SSA:

1. Obtain OMB approval for beneficiary and Rep Payee interview forms it uses during
   its on-site reviews of Rep Payees.

2. Modify the Request to be Selected as Payee and the Representative Payee Report
   with language that clearly states the Rep Payee’s acknowledgment of its obligation
   to provide SSA access to the Rep Payee’s financial records.

SSA agreed with our first recommendation. It obtained OMB approval for the use of its
on-site interview forms on May 29, 2001. With respect to our second recommendation,
SSA revised the Request to be Selected as Payee to explicitly authorize SSA access to
the Rep Payee’s financial records. However, SSA has not revised the Representative
Payee Report to state the Rep Payee agrees to allow SSA access to its financial
records.

CONCLUSIONS AND RECOMMENDATIONS
Four of the Rep Payees we audited generally had effective safeguards over the receipt
and disbursement of Social Security benefits and ensured that Social Security benefits
were used and accounted for in accordance with SSA’s policies and procedures. The
two remaining Rep Payees had problems meeting both of these objectives.
Recommendations for improvement were made, most notably in monitoring and
reporting changes in beneficiary circumstances to SSA. See Appendices A-1 through
A-6 for the specific recommendations for each of the six audits. In addition, SSA needs
to consider the use of SVCs or similar technology as an opportunity to realize significant
administrative savings and to improve internal controls over Rep Payees. Finally, in
response to our memorandum, On-site Reviews of Representative Payees, SSA has
implemented the first recommendation and part of our second recommendation.

Summary of Previous OIG Recommendations

Below are selected recommendations we previously reported to the appropriate SSA
Regional Commissioners and are presented here for informational purposes only.

We recommended that SSA require the affected Rep Payees to:

1. Implement internal accounting controls to ensure that all benefit receipts and
   disbursements are accurately recorded.

2. Implement controls to monitor and report to SSA events that would affect benefit
   eligibility or amount. Also, SSA should make sure Rep Payees take corrective
   action to repay all overpayments we identified during our audits.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)    iv
3. Survey banks to re-assess the feasibility of placing beneficiary conserved funds into
   an interest-bearing account and to take action to ensure all individuals earn interest
   on their conserved funds.

4. Return conserved funds to SSA or the new Rep Payee for individuals no longer in its
   care and to establish controls to determine when individuals no longer in its care
   have conserved funds and ensure these funds are returned in a timely manner.

5. Determine the accuracy of conserved funds due SSA beneficiaries who are no
   longer in the Rep Payee’s care. As appropriate, return any conserved funds to the
   affected beneficiaries, new Rep Payees, or SSA.

6. Reimburse beneficiaries for improper fees charged. Also, SSA should provide
   guidance on the proper collection of fees for Rep Payee services.

In addition we recommended that SSA take corrective actions to:

7. Consolidate the multiple entries in RPS and update RPS to include all beneficiaries
   in a Rep Payee’s care.

Current Recommendations

We recommend that SSA:

1. Take appropriate follow-up actions to ensure the Rep Payees implement the 29 OIG
   recommendations made from the 6 audits.

2. Pilot the use of SVC or similar technology for Rep Payees.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)     v
AGENCY COMMENTS
SSA agreed with Recommendation 1 but disagreed with Recommendation 2. In its
response, SSA concluded that stored value cards would be time-consuming and labor-
intensive for Rep Payees. SSA also stated that many landlords, small businesses and
service providers had no means of processing SVCs. (See Appendix C for the full text
of SSA’s comments.)

OIG RESPONSE

We continue to believe SSA should conduct a pilot of SVC use for Rep Payees. A pilot
on the use of SVCs supports the President’s Management and Performance Plan for
“electronic government” and the Paperwork Reduction Act of 1995. In addition, the
success of similar initiatives in other agencies has significantly reduced operating
expenses (U.S. Military) as well as program fraud (Department of Agriculture).

We believe SSA’s conclusions about SVCs are premature. The purpose of performing
the pilot is to determine the feasibility, any limitations, necessary modifications, costs,
benefits, legal implications, etc., of SVCs. Given the problems our audits and
investigations of Rep Payees continue to identify, as well as SSA’s inability to retrieve
over 50 percent of Representative Payee Reports, we believe SSA should determine
whether such technology has limited or widespread potential use for SSA’s
Representative Payment Program.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)      vi
                                                                            Table of Contents
                                                                                                                         Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

Financial-Related Audits of Representative Payees Reveal Some Problematic
Conditions .................................................................................................................... 4

    Accounting Internal Control Weaknesses Existed ..................................................... 5

    Changes Affecting Beneficiaries’ Eligibility or
    Benefit Amounts Were Not Always Reported ............................................................ 5

    Conserved Funds Were Improperly Handled ............................................................ 7

    Rep Payees Improperly Charged Fees...................................................................... 7

    Incorrect Data Recorded in RPS................................................................................ 8

Significant Issues Related to SSA’s Oversight of the Representative
Payment Program.......................................................................................................... 9

    Stored Value Cards: An e-Government Opportunity SSA Should Consider ........... 10

    Rep Payee Reports Contained Questionable Data,
    and SSA Could Not Always Retrieve Reports.......................................................... 12

Status of SSA’s Corrective Actions Taken in Response to OIG
Memorandum, On-site Reviews of Representative Payees ................................... 13

    SSA Obtained OMB Approval for Use of Standardized Questions .......................... 14

    SSA Modified Language for Access to Financial Records....................................... 14

CONCLUSIONS AND RECOMMENDATIONS ............................................................ 16

APPENDICES

    Appendix A – Office of the Inspector General Financial-Related Audits of
                 Representative Payees

         A-1       Financial-Related Audit of Hale Barnard Services


Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)
       A-2    Financial-Related Audit of an Individual Representative Payee in Georgia

       A-3    Financial-Related Audit of an Organizational Representative Payee in
              Michigan

       A-4    Financial-Related Audit of Outreach, Inc.

       A-5    Financial-Related Audit of the Baltimore City Department of Social
              Services

       A-6    Financial-Related Audit of an Individual Representative Payee in
              Oklahoma

   Appendix B – OIG Memorandum, On-site Reviews of Representative Payees

   Appendix C – Agency Comments

   Appendix D – OIG Contacts and Staff Acknowledgment




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
                                                                       Acronyms
BCDSS             Baltimore City Department of Social Services

EBT               Electronic Benefits Transfer

HBS               Hale Barnard Services

IG                Inspector General

OASDI             Old-Age, Survivors and Disability Insurance

OIG               Office of the Inspector General

OMB               Office of Management and Budget

PRA               Paperwork Reduction Act

Rep Payee         Representative Payee

RPS               Representative Payee System

RPR               Representative Payee Reports

SSA               Social Security Administration

SSI               Supplemental Security Income

SVC               Stored Value Card

USDA              United States Department of Agriculture




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)
                                                                              Introduction
OBJECTIVES

Our objectives were to (1) summarize common findings and recommendations from the
six Office of the Inspector General (OIG) financial-related audits of representative
payees (Rep Payees), (2) identify significant issues related to the Social Security
Administration’s (SSA) oversight of Rep Payees, and (3) determine the status of SSA’s
corrective actions taken in response to the OIG's December 13, 2000 memorandum,
On-site Reviews of Representative Payees.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
                                                                                     7
authority to appoint Rep Payees to receive and manage these beneficiaries’ payments.
A Rep Payee may be an individual or an organization. SSA selects Rep Payees for
Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries or Supplemental
Security Income (SSI) recipients when representative payments would serve the
individual’s interests.

Rep Payees are responsible for using benefits in the beneficiary’s best interests.8 Their
duties include:

·     using benefits to meet the beneficiary’s current and foreseeable needs;9
·     conserving and investing benefits not needed to meet the beneficiary’s current
      needs;10
·     maintaining accounting records of how the benefits are received and used;11
·     reporting events to SSA that may affect the individual's entitlement or benefit
                        12
      payment amount;
·     reporting any changes in circumstances that would affect their performance as a
                  13
      Rep Payee; and


7
    42 U.S.C. §§ 405(j), 1383(a)(2)(A)(ii), 20 C.F.R. §§404.2035(a), 416.635(a).
8
    20 C.F.R. §§ 404.2035(a), 416.635.
9
    20 C.F.R. §§ 404.2040, 416.640(a).
10
     20 C.F.R. §§ 404.2045, 416.645.
11
     20 C.F.R. §§ 404.2065, 416.665.
12
     20 C.F.R. §§ 404.2035, 416.635.
13
     42 U.S.C. §§405(j)(3)(A), 1383(a)(2)(C), 20 C.F.R. §§ 404.2035(b), 416.635(b).


Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)     1
·   providing SSA an annual Representative Payee Report (RPR) accounting for how
    benefits were spent and invested.

OIG Financial-Related Audits of Representative Payees

Since 1996, our audits have identified weaknesses in SSA’s monitoring of and
accounting for Rep Payees, and our investigative work provides examples of Rep
Payees that have committed misuse. For example, our December 1996 evaluation
report, Monitoring Representative Payee Performance: Non-Responding Payees,
identified several problems with Rep Payees who do not respond to and complete the
RPRs. As a result, we recommended that SSA determine why Rep Payees do not
complete the RPRs; determine whether SSA staff are properly processing alerts for
Rep Payees who do not complete the RPRs; and develop procedures to ensure Rep
Payees complete the RPRs.

In May 2000, the Inspector General (IG) testified before Congress and expressed
concern over the lack of accountability and oversight of SSA’s Rep Payees. No case
better exemplifies the weaknesses in SSA’s monitoring of Rep Payees than the Aurora
Foundation, in which the Rep Payee embezzled over $300,000 in Social Security
payments. The IG testified that, during the Aurora Foundation’s final year in operation,
SSA was only able to secure 12 of the required 140 RPRs. Missing RPRs reflect a lack
of program oversight on behalf of SSA. After the hearings, Congress asked SSA to
provide monthly status reports on its efforts to monitor and improve the Representative
Payment Program.

For these reasons, we performed six financial-related audits of Rep Payees (Appendix
A). We audited three types of Rep Payees:

·   organizational payees (fee-for-service),
·   organizational payees (non-fee-for-service), and
·   individual payees (serving more than 50 beneficiaries).

The objectives of the audits were to determine whether Rep Payees (1) had effective
safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
SSA policies and procedures.

The six Rep Payees we audited were:

·   Hale Barnard Services, a fee-for-service Rep Payee in Boston, Massachusetts;
·   Baltimore City Department of Social Services (BCDSS), an organizational Rep
    Payee in Baltimore, Maryland;
·   an individual Rep Payee in Decatur, Georgia;
·   an organizational Rep Payee in Detroit, Michigan;
·   an individual Rep Payee in Prague, Oklahoma; and
·   Outreach, Inc., a fee-for-service Rep Payee in San Jose, California.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   2
SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed and analyzed the results of the six OIG
financial-related audits of Rep Payees to identify significant issues related to SSA
oversight of Rep Payees. In addition, we researched the potential benefits of using
stored value cards (SVC) in SSA’s Rep Payee program. We also determined the status
of SSA’s corrective actions taken in response to our December 13, 2000 memorandum,
On-site Review of Representative Payees (Appendix B).

We performed our review in Baltimore, Maryland, from July to November 2001.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   3
                                                        Results of Review
These audits revealed the existence of some problematic conditions that needed
corrective action. In addition, after reviewing the results of our six financial-related
audits, we identified several issues related to SSA’s oversight of Rep Payees that
warrant the attention of Agency management. Furthermore, SSA has taken action in
response to our memorandum concerning data collection and access to Rep Payees’
financial information.

Financial-Related Audits of Representative Payees Reveal Some Problematic
Conditions

Of the six Rep Payees audited, we determined that four14 Rep Payees generally (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured that Social Security benefits were used and accounted for in accordance
with SSA’s policies and procedures.
         15
The two remaining Rep Payees had problems related to these objectives. Although
one Rep Payee ensured that Social Security benefits were used and accounted for in
accordance with SSA’s policies and procedures, our audit showed that significant
improvements were needed for its safeguards over the receipt and disbursement of
Social Security benefits. Our work also indicated that the other Rep Payee did not have
effective safeguards to properly account for beneficiary benefits. Further, this Rep
Payee did not ensure that Social Security benefits were used and accounted for in
accordance with SSA’s policies and procedures.

Our audits found the following:

·    two Rep Payees had notable accounting internal control weaknesses,
·    five Rep Payees failed to monitor and report changes that affected benefit eligibility,
·    two Rep Payees improperly handled beneficiaries’ conserved funds, and
·    two fee-for-service Rep Payees improperly charged fees.

In addition, for five of the Rep Payees, SSA incorrectly recorded the number of
beneficiaries in the Rep Payee’s care and/or had listed the Rep Payee multiple times in
its Representative Payee System (RPS).




14
  Hale Barnard Services, Appendix A-1; Individual Rep Payee, Georgia, Appendix A-2; Organizational
Rep Payee, Michigan, Appendix A-3; Outreach, Inc., Appendix A-4.
15
  Baltimore City Department of Social Services, Appendix A-5, Individual Rep Payee, Oklahoma,
Appendix A-6.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                 4
Accounting                  Rep Payees are required to keep accurate and complete records
                            to show how much they received in SSA benefits and how that
Internal Control                               16
                            money was used. Annually, a Rep Payee is required to report
Weaknesses
                            this information to SSA by completing and returning the RPR.
Existed
                            Records must be kept for 2 years from the time the Rep Payee
                            completes the RPR.17

Two Rep Payees18 did not have adequate accounting internal controls to ensure the
accuracy and completeness of recorded benefit receipts and disbursements. Some of
the reported weaknesses included (1) the subsidiary ledger was not reconciled to the
general ledger; (2) bank statements were not reconciled to subsidiary ledgers;
(3) beneficiary funds were commingled with Rep Payee’s own operating funds; and
(4) cash disbursements were not properly accounted for. The effect of these
                   19
weaknesses for 1 Rep Payee was a recorded error in benefit receipts and
disbursements in 41 of 50 cases (82 percent) in our sample.


    Changes Affecting             One of a Rep Payee’s primary responsibilities is to notify
    Beneficiaries’                SSA of any change that will affect the amount of benefits
    Eligibility or Benefit        the beneficiary receives or the beneficiary’s right to receive
    Amounts Were Not              benefits. The Rep Payee must report changes within
    Always Reported               10 days after the month in which the change occurred. For
                                  example, some of the changes a Rep Payee must report to
                                  SSA are:

·     receipt of other Government benefits,
·     change of child custody,
·     imprisonment or commitment to an institution,
·     change in income or resources, and
·     marriage.
                            20
Five of the six Rep Payees we audited failed to report changes that affected benefit
eligibility. These reportable events included (1) receipt of another Government benefit,
(2) resources over $2,000, (3) a change in living condition, and (4) the deaths of
beneficiaries. The Rep Payees indicated they failed to report changes because they
were unaware of their responsibility to notify SSA or the Rep Payee did not have

16
     20 C.F.R. §§ 404.2065, 416.665.
17
     20 C.F.R. §§ 404.2060, 416.660.
18
 Baltimore City Department of Social Services, Appendix A-5, Individual Rep Payee, Oklahoma,
Appendix A-6.
19
     Baltimore City Department of Social Services, Appendix A-5.
20
  Hale Barnard Service, Appendix A-1; Individual Rep Payee, Georgia, Appendix A-2; Organizational Rep
Payee, Michigan, Appendix A-3; Outreach, Inc., Appendix A-4; Baltimore City Dept. of Social Services,
Appendix A-5.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                5
procedures in place to identify reportable events. Not reporting these events resulted in
an estimated $880,537 in benefit overpayments for 272 beneficiaries between
September 1999 and August 2000.

The chart below identifies the overpayment amount by program and reason for each
Rep Payee.




                        OASDI              SSI              Total               Reason(s) for
    Rep Payee        Overpayment       Overpayment       Overpayment           Overpayment(s)

  Hale Barnard                               $ 22,774           $ 22,774 -       Resources over
  Services                                                                      $2,000

                                                                           -    Receipt of
                                                                                another
                           $ 60,712         $ 746,808         $ 807,520         Government
                                                                                benefit
                                                                           -    Resources over
  Baltimore City                                                                $2,000
  Department of                                                            -    Changes in
  Social Services                                                               living conditions

  Individual in                                $ 4,596           $ 4,596 -      Resources over
  Decatur                                                                       $2,000
  Georgia

  Organization in                                $ 359             $ 359 -      Resources over
  Detroit                                                                       $2,000
  Michigan

                                                                           -    Resources over
                            $10,320           $34,968           $45,288         $2,000
                                                                           -    Beneficiary
  Outreach, Inc.                                                                deceased

  Total                    $ 71,032         $ 809,505         $ 880,537




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)          6
Conserved            Rep Payees are required to conserve or invest benefits not needed
Funds Were           for the beneficiary's immediate or foreseeable needs. These funds
Improperly           may be deposited in an interest-bearing or dividend-bearing
Handled              account in a bank, trust company, credit union, or savings and loan
                     association that is insured under either Federal or State law. For
                     each beneficiary, Rep Payees should place conserved funds in
excess of $150 in interest-yielding investments. In addition, a Rep Payee who is no
longer serving as the Rep Payee must transfer the beneficiary’s conserved funds to a
successor Rep Payee, SSA, or the beneficiary.

Two Rep Payees21 improperly handled the beneficiary’s conserved funds. For
example, conserved funds were not properly titled, were held in a non-interest-bearing
account, in an underinsured account, or were not returned to SSA when the Rep
Payees were no longer serving as the Rep Payee. In our opinion, these problems were
the result of a high turnover in Rep Payee personnel. One Rep Payee stated it had
problems with its bank and therefore had not deposited beneficiaries’ conserved funds
into savings accounts.
      22
One Rep Payee did not earn interest on beneficiaries’ savings. The Rep Payee held
$665,062 in a non-interest-bearing checking account, and the account was not properly
titled to show the fiduciary relationship between the Rep Payee and the beneficiaries in
its care. Also, the Rep Payee held about $53,052 for 28 individuals, including 7 who
had died and 21 who were assigned to new Rep Payees or were no longer eligible for
benefits. Another23 Rep Payee did not invest $1,665,400 of beneficiaries’ conserved
funds into savings accounts and did not return about $864,000 in conserved funds to
SSA when the Rep Payee was no longer serving as the Rep Payee. The conserved
funds balances ranged from $2 to over $35,000.

                     Some organizational Rep Payees may collect a fee from the
Rep Payees
                     individual’s total Social Security benefits. To collect a fee, an
Improperly
                     organization must be a community-based, nonprofit social service
Charged Fees
                     agency, bonded or licensed, and serving at least five beneficiaries.
                     The organization cannot be a creditor of the beneficiary. The fee
charged is the lesser of 10 percent of the monthly benefit amount or $28. However,
current benefits may not be used to collect fees for prior months. In addition, Rep
Payees are prohibited from charging a fee if no SSA payment is received in the month.




21
     Outreach, Inc., Appendix A-4, Baltimore City Dept. of Social Services, Appendix A-5.
22
     Outreach, Inc., Appendix A-4.

23
     Baltimore City Dept. of Social Services, Appendix A-5.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)        7
For the two fee-for-service Rep Payees24 audited, we found that both had improperly
charged fees. For example, the Rep Payees charged fees during months in which no
benefits were received, used current benefits to retroactively charge fees for prior
months, collected fees when funds were not available for payment, and failed to charge
the lesser of $28 per month or 10 percent of benefits received. The improper fee
charges totaled $874 for 9 of the 113 individuals reviewed.
                                                                       25
Incorrect Data       The Omnibus Budget Reconciliation Act of 1990 requires SSA to
Recorded In          develop a system to maintain data about all Rep Payees and the
                     individuals they serve. As a result, SSA established the RPS,
RPS
                     which is an on-line system for entering and retrieving information
                     about Rep Payees and those applying to be Rep Payees. The
RPS contains data about Rep Payee applicants; individuals in the Rep Payee’s care;
and the relationship between the Rep Payee and the individuals.

In addition, SSA uses the RPS to select Rep Payees for an on-site review. Specifically,
SSA periodically selects from RPS all fee-for-service Rep Payees, all organizational
Rep Payees serving more than 100 beneficiaries and individual Rep Payees serving
more than 20 beneficiaries for on-site reviews. From the selected Rep Payees, SSA
obtains a sample of beneficiaries for review.
                                                                                                26
We found that SSA had erroneous information in RPS for five of the Rep Payees                        we
audited. This included:

·     beneficiaries in the Rep Payee’s care were not recorded in RPS,
·     Rep Payees were listed multiple times in RPS, and
·     Rep Payees were improperly classified as a non-fee-for-service Rep Payee when in
      fact it was a fee-for-service Rep Payee or as an organizational Rep Payee when in
      fact it was an individual Rep Payee.

We found some errors occurred because several individuals had been with the Rep
Payee before RPS was implemented. These individuals were omitted when RPS was
initially established.

Erroneous information in RPS could result in a Rep Payee not being identified for an
on-site review. For example, this could occur if a Rep Payee is listed multiple times in
RPS and the listing indicates it is managing payments for beneficiaries less than the
number of beneficiaries required for an on-site review. In addition, all beneficiaries in a
Rep Payee’s care may not be properly identified for review.

24
     Hale Barnard Services, Appendix A-1, Outreach, Inc., Appendix A-4.
25
     Public Law 101-508, Section 5105.
26
  Individual Rep Payee, Georgia, Appendix A-2; Organizational Rep Payee, Michigan, Appendix A-3;
Outreach, Inc., Appendix A-4; Baltimore City Dept. of Social Services, Appendix A-5; Individual Rep
Payee, Oklahoma, Appendix A-6.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                      8
Another problem occurs when fee-for-service Rep Payees are not properly classified in
RPS. As a result, the Rep Payee does not receive information from SSA concerning
fee increases.

The following chart identifies the beneficiaries not recorded in RPS, the number of
multiple listings in RPS for each Rep Payee and the Rep Payees that were improperly
classified.

                                                      Number of
                                                      Times Rep          Was the Rep Payee
                         Beneficiaries not            Payee was          Properly Classified
     Rep Payee           Recorded in RPS             Listed in RPS            in RPS?

 Baltimore City
 Department of
 Social Services                    7                       1                      Yes

 Individual –
 Georgia                            3                       2                      Yes

 Organization –
 Michigan                                                   3                      Yes

 Individual –
 Oklahoma                                                   3                      No

 Outreach, Inc.                    30                       3                      No

Significant Issues Related to SSA’s Oversight of the Representative Payment
Program

We identified several issues related to SSA’s oversight of Rep Payees that warrant the
attention of Agency management. These issues concern the potential benefits of using
SVCs 27 or similar technology and problems associated with the annual RPRs.




27
   An SVC is a prepaid spending card that can be used everywhere a credit card is accepted. Because it
is a prepaid card, spending is limited to the amount of money transferred to the card. The SVC looks
similar to a credit card, both would have the credit card mark and hologram; however, SVCs do not have a
line of credit. To a merchant, the SVC functions like a credit card. Merchants process SVCs and credit
card authorizations in the same manner. Also, SVCs can be used to make automated teller machine
withdrawals.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                  9
                             One of the key elements in the President’s Management and
Stored                       Performance Plan is “electronic Government” (e-Government).
Value Cards: An              E-Government is the use of digital technologies to transform
e-Government                 Government operations to improve effectiveness, efficiency, and
Opportunity SSA              service delivery. The Office of Management and Budget (OMB)
Should Consider              has established a task force to begin implementing the
                             President’s initiative and is requesting agencies to identify high
                             payoff e-Government opportunities.

We believe the use of SVCs is an e-Government opportunity that SSA should consider
for its Representative Payment Program. SSA is already participating in a product
similar to SVC through the Electronic Benefits Transfer (EBT) Program28 sponsored by
the Department of Treasury. About 50,000 beneficiaries/recipients are voluntarily
participating in this Program. The EBT Program has reduced administrative costs by
eliminating costs associated with printing and mailing benefit checks.

Other Federal agencies have also been using SVCs/EBT for several years. For
example, the U.S. Department of Agriculture (USDA) issues over 80 percent of its food
stamp benefits using EBT. EBT creates an electronic record of each food stamp
transaction, making it easier to identify and document instances where food stamps are
             29
“trafficked,” or exchanged for cash, drugs or other illegal goods. The use of EBT has
made it easier for USDA to detect large-scale trafficking, a type of program fraud. The
USDA reported a 19-percent decline in food stamp trafficking due in part to EBT.

In another example, the U.S. Army completed its 1 millionth SVC transaction in
May 1999 as part of a recently completed project intended to provide a more efficient
system to disburse initial pay to “basic trainees.” About 125,000 cards had been issued
totaling about $40 million in SVC transactions. The use of SVCs reduced the
administrative time required to pay trainees. In addition, the SVCs saved time by
eliminating the need to cash checks, money orders and credit vouchers. The SVC
program manager reported cardholder fraud at about 1 for every 10,000 cards issued.

    Application of SVCs to SSA’s Representative Payment Program – Given the nature
of the problematic conditions we identified during our six audits, we believe SSA should
consider the use of SVCs to safeguard how Rep Payees spend and account for
beneficiary payments. Specifically, SVCs could replace the need for “paper checks” or
direct deposit payments. SSA, in partnership with a given credit card company, could
issue SVCs to Rep Payees. SSA could transfer or “load” the beneficiary’s monthly
benefit payment onto the SVC. The Rep Payee would then use the SVC to make



28
  The EBT program know as the Benefit Security Card (BSC) is part of a governmentwide effort to
improve services to beneficiaries who do not have an account at a financial institution. Beneficiaries using
the BSC access their benefits through automated teller machines and point-of-sale terminals.
29
  Trafficking is when individuals sell their food stamps for cash. It violates the sprit and intent of the Food
Stamp Program as well as the law.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                         10
purchases on behalf of the beneficiary and would be able to use the automated teller
machine feature to make cash withdraws, if necessary.

Use of the SVCs could provide improved safeguards over Rep Payees’ use of Social
Security benefits. Specifically, SVCs could enable SSA to obtain spending information
directly from the SVC/credit card company on the type and amount of expenses the
Rep Payee incurred. This information could be available electronically and could be
reviewed at various intervals (weekly, monthly, and annually). In addition, SVCs could
provide SSA and Rep Payees the ability to monitor balances and purchases by
reviewing on-line statements or by calling a voice response telephone line. Since
balances and purchases are electronically captured, the RPR may no longer be
needed.30

Some potential benefits of using the SVC could include:

·     Eliminating the RPR and providing significant administrative savings of costs for
      mailing and processing RPRs. Almost 7 million RPRs are mailed and processed
      annually at a cost of about $52 million.

·     Eliminating the costs and problems associated with storing and retrieving RPRs.

·     Enabling SSA to obtain spending information directly from the SVC company on the
      type and amount of expenses the Rep Payee incurred. This information could be
      available electronically and be reviewed at various intervals (weekly, monthly, and
      annually).

·     Allowing SSA to identify instances of questionable expenses, unusual spending
      patterns and establishing merchant blocking to prevent Rep Payees from making
      purchases with certain vendors.

·     Tracking conserved fund balances and, as such, allowing SSA to quickly identify
      instances when SSI recipients have resources over $2,000.

·     Identifying conserved fund balances that should be returned to SSA.
                                                                 31
·     Supporting the Paperwork Reduction Act (PRA) of 1995 by minimizing the
      paperwork burden for individuals, businesses, institutions, and other persons
      resulting from the collection of information by or for the Government.




30
     The elimination of the RPR would require a legislative amendment to the Social Security Act.
31
     44 U.S.C. §§ 3501et.seq.



Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                11
 Rep Payee Reports         One method SSA uses to monitor Rep Payees is the RPR.
 Contained                 The RPR is intended to assist SSA in determining the
 Questionable Data,        (1) use of benefits during the proceeding 12-month
                           reporting period, (2) continued suitability of the Rep Payee,
 and SSA Could Not                                                               32
                           and (3) continued need for representative payment.
 Always Retrieve
                           Depending on the Rep Payee’s responses, SSA may
 Reports
                           contact the Rep Payees to determine their continued
                           suitability. During our reviews, we found several
completed RPRs that had questionable information. We also found that SSA could not
always retrieve completed RPRs.

   Rep Payee Reports with no Reported Beneficiary Expenses - One Rep Payee33
reported that, on three completed RPRs, it spent none of the benefits it received from
SSA. We believe this information should have alerted SSA to potential problems.
Similar information could cause problems if it pertains to SSI beneficiaries who are
entitled to payments based on financial need. According to SSA’s records, no follow-up
actions were taken to determine why the Rep Payee was not spending money on the
beneficiaries.

    Rep Payee Reports with Reported Excess Conserved Funds - For three Rep
Payees,34 our analysis identified five completed RPRs where the Rep Payee reported to
SSA conserved funds for SSI recipients over $2,000. This information was also posted
to the SSI record. For example, in one case, the Rep Payee reported $12,562 in
conserved funds. This information should have initiated a review by SSA to determine
whether the beneficiary was still eligible for payments. However, SSA did not conduct
such a review, and benefits continued uninterrupted.

    Rep Payee Reports with Improperly Reported Expenses - For 1 Rep Payee,35 12 of
the 18 RPRs did not show any reported expenses for food and housing. Instead, our
review showed that all beneficiary expenses were reported as clothing, education,
medical and dental expenses, and recreation or personal items. We asked the Rep
Payee why it did not report food and housing expenses even though they were reflected
in the beneficiaries’ subsidiary ledger. The Rep Payee provided us a copy of an
Internal Revenue Service Regulation,36 which states, “The entire cost of nursing home
care is deductible for a mentally incompetent person who is unsafe when left alone.”
The Rep Payee indicated it did not want to report one amount categorized as food and

32
     SSA, Program Operations Manual System, GN 00605.066, GN 00605.067, GN 00605.090,
     GN 00605.221.
33
     Baltimore City Dept. of Social Services, Appendix A-5.
34
  Hale Barnard Services, Appendix A-1; Organizational Rep Payee, Michigan, Appendix A-3; Baltimore
City Dept. of Social Services, Appendix A-5.
35
     Organizational Rep Payee, Michigan, Appendix A-3.
36
     26 C.F.R. § 1.213-1.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                 12
housing to SSA and a different amount to the Internal Revenue Service. The Rep
Payee should properly report the expenses regardless of Internal Revenue Service
reporting requirements. SSA staff agreed that the Rep Payee should appropriately
report the food and housing expenses on the RPR.

   SSA Retrieval of Rep Payee Reports - As part of our six audits, we planned to
review a sample of completed RPRs to determine whether the Rep Payee met its
reporting responsibilities. We requested the most recently completed RPRs for
167 beneficiaries. However, SSA only provided 67 of the RPRs we requested. For the
remaining 100, we could not determine whether the Rep Payee properly submitted
RPRs. This problem was also discussed when the IG testified at May 2000
congressional hearings. At that time, the IG testified that, during the Aurora
Foundation’s final year in operation, SSA was only able to retrieve12 of the required
140 RPRs.

The following table shows how many RPRs were and were not received received during
our audits.

                                      RPRs               RPRs                RPRs
Rep Payee                           Requested           Received         Not Received

Hale Barnard Services                    30                 13                 17

Baltimore City Department of
Social Services                          26                 15                 11

Individual – Georgia                     30                 0                  30

Organizational – Michigan                30                 18                 12

Individual – Oklahoma                    21                 14                  7

Outreach, Inc.                           30                 7                  23

Total                                   167                 67                100

Status of SSA’s Corrective Actions Taken in Response to OIG Memorandum,
On-site Reviews of Representative Payees

In our December 13, 2000 memorandum, On-site Reviews of Representative Payees
(Appendix B), we alerted SSA to two conditions we identified while we were planning
our financial-related audits of Rep Payees. Those conditions pertained to SSA’s use of
standardized questions during on-site reviews and access to Rep Payees’ financial
records.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)    13
                         As part of our financial-related audits of Rep Payees, we
SSA Obtained             interviewed a sample of beneficiaries. In developing our interview
OMB Approval             questions, we learned OMB had to approve the questionnaire we
for Use of               planned to use to collect information from the beneficiaries. These
Standardized                                                 37
                         requirements are set forth in PRA. The PRA minimizes the
Questions                paperwork burden resulting from the collection of information by or
                         for the Government. We proceeded accordingly and obtained
OMB approval.

While planning the financial-related audits of Rep Payees, we determined that SSA did
not receive OMB approval for collecting certain information while performing its on-site
reviews of Rep Payees. On-site reviews consist of a visit with the Rep Payee, a review
of the accounting records for a sample of beneficiaries, and interviews with
beneficiaries to determine whether needs are being met. During these reviews, SSA
uses standardized questions for collecting information from beneficiaries and Rep
Payees. SSA did not submit the standardized questions to OMB for approval, in
accordance with the PRA.

We were concerned that SSA undermined the PRA goals, objectives, and protections
granted to the public by not obtaining OMB clearance for these interview questions. As
a result, we recommended that SSA obtain OMB approval for the beneficiary and Rep
Payee interview forms it uses during its on-site reviews of Rep Payees. SSA agreed
with our recommendation and received clearance from OMB to use its standardized
interview forms on May 29, 2001.

SSA Modified             In planning our audits, we also anticipated that some Rep
Language for             Payees might refuse to provide us their financial accounting
                         records of benefits received and spent on behalf of
Access to
                         beneficiaries. Therefore, we reviewed relevant legal criteria as
Financial Records
                         well as SSA policies and procedures to determine whether Rep
                         Payees are required to provide this information. Based on our
review of these criteria, we found that there was no explicit language stating that a Rep
Payee is obligated to allow SSA access to the Rep Payee’s financial records of benefits
received and spent on the beneficiary’s behalf. Absent such language, there is an
increased risk that Rep Payees may refuse SSA access to such records.

Consequently, we recommended that SSA modify language contained in its Request to
be Selected as Payee and the Social Security Administration Representative Payee
Report accordingly. We recommended that the language make it clear that a Rep
Payee agrees to allow SSA access to the Rep Payee’s financial records of benefits
received and spent on a beneficiary’s behalf.




37
     Pubic Law 104-13.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)      14
Our review found that SSA revised the Request to be Selected as Payee to explicitly
authorize SSA access to the Rep Payee’s financial records. However, SSA has not
revised the RPR to state the Rep Payee agrees to allow SSA access to its financial
records.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   15
                                                       Conclusions and
                                                      Recommendations
Four of the Rep Payees we audited generally had effective safeguards over the receipt
and disbursement of Social Security benefits and ensured that Social Security benefits
were used and accounted for in accordance with SSA’s policies and procedures.
However, the two remaining Rep Payees had problems related to these objectives.
Although one Rep Payee ensured that Social Security benefits were used and
accounted for in accordance with SSA’s policies and procedures, our audit showed that
significant improvements were needed for its safeguards over the receipt and
disbursement of Social Security benefits. The other Rep Payee did not have effective
safeguards over the receipt and disbursement of Social Security benefits and did not
ensure that Social Security benefits were used and accounted for in accordance with
SSA’s policies and procedures. Recommendations for improvement were made, most
notably in monitoring and reporting changes in beneficiary circumstances to SSA. See
Appendices A-1 through A-6 for the specific recommendations for each of the six
audits. Also, SSA should consider the use of SVCs or similar technology as an
opportunity to realize significant administrative savings and improve internal controls
over Rep Payees. Finally, in response to our memorandum, On-site Reviews of
Representative Payees, SSA has implemented the first recommendation and part of
our second recommendation.


Summary of Previous OIG Recommendations

Below are selected recommendations we previously reported to the appropriate SSA
Regional Commissioners and are presented here for informational purposes only.

We recommended that SSA require the affected Rep Payees to:

1. Implement internal accounting controls to ensure that all benefit receipts and
   disbursements are accurately recorded.

2. Implement controls to monitor and report to SSA events that would affect benefit
   eligibility or amount. Also, SSA should make sure Rep Payees take corrective
   action to repay all overpayments we identified during our audits.

3. Survey banks to re-assess the feasibility of placing beneficiary conserved funds into
   an interest-bearing account and to take action to ensure all individuals earn interest
   on their conserved funds.

4. Return conserved funds to SSA or the new Rep Payee for individuals no longer in its
   care and to establish controls to determine when individuals no longer in its care
   have conserved funds and ensure these funds are returned in a timely manner.


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   16
5. Determine the accuracy of conserved funds due SSA beneficiaries who are no
   longer in the rep payee’s care. As appropriate, return any conserved funds to the
   affected beneficiaries, new Rep Payees, or SSA.

6. Reimburse beneficiaries for improper fees charged. Also, SSA should provide
   guidance on the proper collection of fees for Rep Payee services.

   In addition, we recommended that SSA take corrective actions to:

7. Consolidate the multiple entries in RPS and update RPS to include all beneficiaries
   in a Rep Payee’s care.

Current Recommendations

We recommend that SSA:

1. Take appropriate follow-up actions to ensure the Rep Payees implement the 29 OIG
   recommendations made from the 6 audits.

2. Pilot the use of SVC or similar technology for Rep Payees.

AGENCY COMMENTS
SSA agreed with Recommendation 1 but disagreed with Recommendation 2. In its
response, SSA concluded that stored value cards would be time-consuming and labor-
intensive for Rep Payees. SSA also stated that many landlords, small businesses and
service providers had no means of processing SVCs. (See Appendix C for the full text
of SSA’s comments.)

OIG RESPONSE

We continue to believe SSA should conduct a pilot of SVC use for Rep Payees. A pilot
on the use of SVCs supports the President’s Management and Performance Plan for
“electronic government” and the Paperwork Reduction Act of 1995. In addition, the
success of similar initiatives in other agencies has significantly reduced operating
expenses (U.S. Military) as well as program fraud (Department of Agriculture).

We believe SSA’s conclusions about SVCs are premature. The purpose of performing
the pilot is to determine the feasibility, any limitations, necessary modifications, costs,
benefits, legal implications, etc., of SVCs. Given the problems our audits and
investigations of Rep Payees continue to identify, as well as SSA’s inability to retrieve
over 50 percent of Representative Payee Reports, we believe SSA should determine
whether such technology has limited or widespread potential use for SSA’s
Representative Payment Program.



Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)      17
                                           Appendices




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)
                                                                         Appendix A
                Office of the Inspector General
      Financial-Related Audits of Representative Payees

A-1    Financial-Related Audit of Hale Barnard Services A Fee-for-Service
       Representative Payee for the Social Security Administration
       (A-01-00-10060) Issued May 2001

A-2    Financial-Related Audit of an Individual Representative Payee in Georgia for the
       Social Security Administration (A-03-00-10064) Issued July 2001

A-3    Financial-Related Audit of an Organizational Representative Payee in Michigan
       for the Social Security Administration (A-05-00-10067) Issued August 2001

A-4    Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Representative
       Payee for the Social Security Administration (A-09-00-10068) Issued
       September 2001

A-5    Financial-Related Audit of the Baltimore City Department of Social Services – an
       Organizational Representative Payee for the Social Security Administration
       (A-13-00-10066) Issued September 2001

A-6    Financial-Related Audit of an Individual Representative Payee in Oklahoma for
       the Social Security Administration (A-06-00-10063) Issued October 2001




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
                                                                       Appendix A-1
Financial-Related Audit of Hale Barnard Services – A Fee-for-Service
Representative Payee for the Social Security Administration
(A-01-00-10060), Issued May 2001

Background

Hale Barnard Services (HBS) is a non-profit, non-sectarian organization headed by a
volunteer Board of Directors. Through its disability program, HBS serves individuals of
all ages, backgrounds and disabilities who are eligible for benefits from the Social
Security Administration (SSA). HBS received benefit payments of $397,733 from
September 1, 1999 through August 31, 2000 for 63 SSA beneficiaries.

Results of Review

We found that HBS:

·   Had effective safeguards over the receipt and disbursement of Social Security
    benefits, and ensured that Social Security benefits were used and accounted for in
    accordance with SSA policies and procedures.

·   Needed to improve procedures in notifying SSA when Supplemental Security
    Income (SSI) recipients exceed $2,000 in conserved funds—the resource limit under
    the SSI program.

Recommendations

We recommended that SSA:

1. Ensure that HBS returns funds paid for recipients who were ineligible due to excess
   resources.

2. Re-emphasize procedures with HBS for notifying SSA when events occur that
   affects the eligibility or the amount of monthly benefits for individuals in its care.

Agency Comments

SSA agreed with our recommendations and stated that corrective actions had already
been taken. Specifically, SSA staff began recovery of the overpayments identified, and
held a meeting with HBS representatives where they reviewed HBS’ reporting
responsibilities as a Rep Payee.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
                                                                       Appendix A-2
Financial-Related Audit of an Individual Representative Payee in Georgia for the
Social Security Administration (A-03-00-10064), Issued July 2001

Background

This representative payee (Rep Payee) is the guardian for most of the individuals in our
audit. A guardian ensures an individual’s physical needs are met. Other guardians for
the beneficiaries in our audit included family members, caregivers, and Government
agencies, such as the Department of Veterans Affairs and the Dekalb County's Division
of Family and Children Services. The Rep Payee received benefit payments of
$352,051 from September 1, 1999 through August 31, 2000 for 53 SSA beneficiaries.

Results of Review

We found that the Rep Payee:

·   Had effective safeguards over the receipt and disbursement of Social Security
    benefits, and ensured that Social Security benefits were used and accounted for in
    accordance with SSA’s policies and procedures.

·   Did not notify SSA of changes in an individual's eligibility due to excess resources,
    leading to an overpayment of $8,092 in SSI payments, including $4,596 in our audit
    period and $3,496 outside the audit period. We also found two cases where
    disabled beneficiaries had significant earnings that were never reported by the Rep
    Payee.

We found that SSA:

·   Incorrectly recorded the number of beneficiaries in the Rep Payee’s care and listed
    the Rep Payee multiple times in its Representative Payee System (RPS).

·   Needed to improve communications with other Government agencies, such as the
    Department of Veterans Affairs and the local county, who are also involved with
    individuals under the Rep Payee's care.

Recommendations

We recommended that SSA:

1. Ensure that the Rep Payee returns funds paid for recipients who were ineligible due
   to excess resources.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)   A-2-1
2. Re-emphasize procedures with Rep Payee for notifying SSA when events occur that
   affects the eligibility of individuals in its care.

3. Update the RPS to consolidate the multiple entries for this Rep Payee and include
   individuals for whom this Rep Payee was selected. In Addition, ensure that all
   individuals assigned a Rep Payee have only one Rep Payee for all SSA benefits
   received.

4. Take timely action on program-related issues reported to SSA by the Rep Payee,
   such as excessive resources and dual Rep Payees.

5. Consider changing its method of communication and information sharing with other
   Government agencies, such as assigning a point of contact between SSA and other
   agencies assisting the individuals under the Rep Payee’s care.

Agency Comments

SSA agreed with our recommendations and stated it had already initiated corrective
actions.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   A-2-2
                                                                       Appendix A-3
Financial-Related Audit of an Organizational Representative Payee in Michigan
for the Social Security Administration (A-05-00-10067), Issued August 2001

Background

The organizational Rep Payee is an attorney who is acting as guardian for individuals
who have no one else to care for them. As a guardian, the Rep Payee is responsible
for the individual's living conditions and medical treatment. Often, the court will
designate the Rep Payee the individual’s conservator as well as their guardian. As a
conservator, the Rep Payee is responsible for the financial matters.

Results of Review

We found that the Rep Payee:

·   Generally, had effective safeguards over the receipt and disbursement of Social
    Security benefits, and ensured Social Security benefits were used and accounted
    for in accordance with SSA’s policies and procedures.

·   Did not notify SSA of changes in an individual's eligibility due to excess resources,
    which resulted in a SSI overpayment of $359 for one individual. This occurred
    because the Rep Payee improperly monitored the recipient’s conserved fund
    balances.

·   We found that SSA incorrectly listed the Rep Payee multiple times in its RPS.

Recommendations

We recommended that SSA update the RPS to consolidate the multiple entries for this
Rep Payee and include all individuals for whom this Rep Payee was selected. In
addition, SSA should ensure that all individuals assigned a Rep Payee have only one
Rep Payee for all SSA benefits received.

AGENCY COMMENTS

SSA agreed with our recommendation. The Agency added that the multiple listings for
this Rep Payee have been consolidated.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)
                                                                       Appendix A-4
Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Representative
Payee for the Social Security Administration (A-09-00-10068), Issued
September 2001

Background

Outreach, Inc., is a nonprofit, organizational Rep Payee located in San Jose, California.
Incorporated in 1979, the Rep Payee provides transportation, financial and social
services to elderly, disabled, and low-income individuals and families in Santa Clara
County, California. Since 1990, Outreach, Inc., has operated as a fee-for-service Rep
Payee to individuals who receive payments under the Old-Age Survivors Disability
Insurance and Supplement Security Income programs. Outreach Inc., received benefit
payments of about $3.5 million from September 1, 1999 through August 31,2000 for
495 SSA beneficiaries.

Results of Review

We found that Outreach Inc.:

·   Generally, had effective safeguards over the receipt and disbursement of Social
    Security benefits, and ensured that Social Security benefits were used and
    accounted for in accordance with SSA’s policies and procedures.

·   Held $632,894 in conserved funds that were uninsured, and $665,062 was in a non-
    interest-bearing account.

·   Did not return $53,052 of conserved funds timely for 28 individuals who were no
    longer in its care.

·   Did not report to SSA that 24 recipients had conserved funds in excess of the SSI
    resource limit of $2,000, resulting in overpayments totaling $34,968.

·   Received incorrect payments totaling $10,320 after the death of three individuals.

·   Commingled burial and nonburial funds for 38 SSI recipients and did not report the
    use of burial funds for nonburial purposes for 15 recipients. This resulted in three
    recipients being subject to penalties totaling $3,500.

·   Issued payments in excess of conserved funds for 87 individuals, resulting in a
    deficit of $1,423 as of August 31, 2000.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)   A-4-1
·   Charged excessive Rep Payee fees totaling $790 for 8 of the 50 individuals in our
    sample.

·   We found that SSA recorded incorrect information in its RPS for Outreach, Inc.,
    including the number of times listed in RPS, type of Rep Payee, and number of
    individuals in its care.

Recommendations

We recommended that SSA direct Outreach, Inc.:

1. To amend the title of its checking account to obtain Federal Deposit Insurance
   Corporation coverage of $100,000 for each individual.

2. To take action to ensure (1) any individuals with conserved funds in excess of
   $100,000 are fully protected against loss and (2) all individuals earn interest on their
   conserved funds in accordance with SSA policy.

3. To return conserved funds to the affected beneficiary, SSA or the new Rep Payee
   for individuals no longer in its care.

4. To establish controls to determine when individuals no longer in its care have
   conserved funds and ensure these funds are returned in a timely manner.

5. To return SSI payments for recipients who were ineligible due to excess resources.

6. To develop procedures for identifying SSI recipients with excess resources and
   reporting them to SSA.

7. To return incorrect payments received on behalf of deceased individuals.

8. To develop procedures for identifying erroneous payments to deceased individuals
   and returning these funds in a timely manner.

9. To obtain a separate bank account for SSI recipients with burial funds and report
   withdrawals from these funds to the Agency. Also, assess penalties for withdrawal
   of burial funds used for other purposes.

10. To reimburse individuals with negative balances for conserved funds and establish
    controls to ensure payments to individuals do not exceed their conserved fund
    balances.

11. To reimburse individuals for excessive Rep Payee fees and provide guidance to
    Outreach on the proper collection of fees for payee services.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   A-2-2
12. To update RPS to consolidate the multiple entries for Outreach and include all
    individuals for whom Outreach was selected as Rep Payee.

Agency Comments

SSA agreed with all of our recommendations.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   A-2-3
                                                                       Appendix A-5
Financial-Related Audit of the Baltimore City Department of Social Services – An
Organizational Representative Payee for the Social Security Administration
(A-13-00-10066), Issued September 2001

Background

The Social Services Administration of the State of Maryland Department of Human
Resources administers social services in each of Maryland’s 23 counties and Baltimore
City through local departments of social services. The Baltimore City Department of
Social Services (BCDSS) provides such services as adoption, foster care, protective
services to children and families, and services to families with children. BCDSS
received benefit payments of about $1.8 million from September 1, 1999 through
August 31, 2000 for 481 SSA beneficiaries. All of the beneficiaries are children who
either live in a foster care home, a group home, or an institution.

Results of Review

We found that BCDSS:

·   Did not have effective safeguards over the receipt and disbursement of Social
    Security benefits and did not ensure that Social Security benefits were used and
    accounted for in accordance with SSA’s policies and procedures.

·   Did not have adequate financial accounting controls to ensure the accuracy and
    completeness of recorded benefit receipts and disbursements. BCDSS did not
    record, or incorrectly recorded, benefit receipts and/or disbursements in
    41 (82 percent) of the 50 beneficiary records we reviewed.

·   Needed improved safeguards over benefit receipts – Our review showed that
    BCDSS received approximately 481 monthly benefit payments by check, and those
    checks were vulnerable to theft and/or loss.

·   Did not adequately monitor and report to SSA changes in beneficiaries’
    circumstances that could have affected their eligibility. Our audit tests identified an
    estimated 236 changes in beneficiary circumstances BCDSS did not report to SSA.
    As a result, we estimated beneficiary overpayments of $807,520 between
    September 1999 through August 2000.

·   Did not always respond to SSA marriage questionnaires concerning children’s
    entitlement to benefits. As a result, 18 children may have had their benefits
    incorrectly terminated. We estimated these children were underpaid a total of about
    $35,000 between September 1999 through August 2000.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)   A-5-1
·   May have improperly spent about $1.6 million in beneficiary conserved funds on
    other foster children. This was because BCDSS had not updated its subsidiary
    ledger for the last 3 years.

·   Did not return conserved funds to SSA beneficiaries who were no longer in their
    care. BCDSS’ financial records showed $864,000 in conserved funds due to former
    SSA beneficiaries. However, BCDSS had taken no action to pay the affected
    beneficiaries, new Rep Payees, or SSA, as required.

We found that SSA incorrectly recorded in its RPS the number of beneficiaries in
BCDSS’ care.

Recommendations

We recommended that SSA require BCDSS to:

1. Implement accounting controls to ensure that all benefit receipts and disbursements
   are accurately recorded.

2. Establish direct deposit for all beneficiaries in BCDSS’ care.

3. Ensure that it implements controls to monitor and report to SSA all changes in
   circumstances that affect the amount of benefits beneficiaries receive or the right of
   beneficiaries to receive benefits. In addition, BCDSS should take corrective action
   to identify and repay all overpayments due to changes in beneficiaries’
   circumstances.

4. Determine the entitlement status of all beneficiaries who may have had their
   benefits incorrectly terminated because BCDSS did not return a questionnaire.
   Ensure BCDSS establishes controls to receive and respond to all SSA
   questionnaires.

5. Determine the accuracy of its estimated $1.6 million in beneficiary conserved funds.
   Thereafter, SSA should determine the impact on the affected beneficiaries’ eligibility
   for benefits and take appropriate corrective actions.

6. Implement controls to ensure it transfers conserved funds for beneficiaries who are
   no longer in its care to new Rep Payees, SSA, or the beneficiaries. In addition,
   BCDSS should determine the accuracy of the $864,000 of conserved funds due
   SSA beneficiaries who are no longer in its care. As appropriate, pay any conserved
   funds to the affected beneficiaries, new Rep Payees, or SSA.

We recommended that SSA:

7. Update RPS to include all beneficiaries in BCDSS’s care.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   A-5-2
AGENCY COMMENTS

SSA agreed with or will consider all of our recommendations and provided additional
technical comments on the audit methodology, findings, and recommendations.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   A-5-3
                                                                       Appendix A-6
Financial-Related Audit of an Individual Representative Payee in Oklahoma for
the Social Security Administration (A-06-00-10063), Issued October 2001

Background

The Rep Payee is a Residential Care Facility licensed by the Oklahoma State
Department of Health to have a maximum of 37 beds. According to the Rep Payee, all
residents have some type of mental disorder. The Rep Payee received benefit
payments of $188,927 from September 1, 1999 through August 31, 2000 for 51 SSA
beneficiaries.

Results of Review

We found that the Rep Payee:

·   Ensured that Social Security benefits were used and accounted for in accordance
    with SSA’s policies and procedures; however, the Rep Payee lacked
    documentation to fully account for the receipt and disbursement of SSA benefits in
    accordance with SSA’s policies and procedures. The lack of documentation was
    mitigated by the fact that the majority of the benefit payments received by the Rep
    Payee consisted of funds that the Rep Payee was entitled to monthly room-and-
    board fees.

·   The Rep Payee did not follow policies and procedures SSA recommended for
    tracking and accounting for beneficiary and recipient funds. Our review showed that
    the Rep Payee did not (1) use separate bank accounts for individual funds; (2) have
    procedures in place that allowed her to provide beneficiaries and recipients with an
    up-to-date reporting of how their funds were spent; and (3) adequately account for
    cash disbursements.

·   We found that SSA incorrectly listed the Rep Payee multiple times in its RPS.

Recommendations

We recommended that SSA:

1. Work with the Rep Payee to determine the appropriate level of documentation to
   account for and report on the receipt and disbursement of SSA benefits in
   accordance with SSA’s policies and procedures, including procedures to properly
   account for and safeguard individual funds and accurately complete RPRs. These
   procedures should clearly address the need for timely, accurate cash logs as well as
   the need to establish and maintain individual ledger sheets as deemed appropriate.




Summary of Financial-Related Audits of Representative Payees for SSA (A-13-00-10065)   A-6-1
2. Ensure that multiple identities are not used for this Rep Payee in RPS.

AGENCY COMMENTS

SSA agreed with both of our recommendations. Specifically, SSA will ask its local field
office to (1) work with the Payee to ensure proper recordkeeping and accurate RPRs
and (2) consolidate the RPS entries and classify this Rep Payee as an organization.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)   A-6-2
                                                                          Appendix B

OIG Memorandum, On-Site Reviews of
Representative Payees




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
                                SOCIAL SECURITY
MEMORANDUM

Date:     December 13, 2000

To:       Fritz Streckewald
          Associate Commissioner, Office of Program Benefits

From:     Assistant Inspector General for Audit

Subject: On-site Reviews of Representative Payees (A-13-01-31020)

When the Social Security Administration (SSA) determines a beneficiary cannot manage his/her
benefits, SSA has the authority to certify benefits to another person or entity as a representative
payee. Payments made to a representative payee must be used for the beneficiary's benefit. There
are about 6.5 million Social Security and Supplemental Security Income (SSI) beneficiaries who
rely on representative payees to manage their monthly payments. While representative payees
provide a valuable service for beneficiaries, SSA has provided some basic safeguards to ensure
they meet their responsibilities to the beneficiaries they serve.

This memorandum is to alert you to two conditions we identified as part of our financial–related
audits of the SSA’s representative payee program. The objectives of the financial-audits are to
determine whether:

      Ø Representative payees have effective safeguards over the receipt and disbursement of
        benefits; and

      Ø Benefits are used and accounted for in accordance with SSA policies and procedures.

During our initial planning phases for these audits, we identified the following conditions, and
we offer recommendations to correct them.

Office of Management and Budget Clearance under the Paperwork Reduction Act of 1995

In recent hearings, Congress expressed concerns over representative payees who have taken
advantage of vulnerable beneficiaries and SSA’s lack of oversight of representative payees. To
address these concerns, SSA has initiated an increased monitoring plan for representative payees.
Included in this effort are on-site reviews of representative payees. On-site reviews consist of a
visit with the representative payee, a review of the accounting records for a sample of
beneficiaries, and interviews with beneficiaries to determine whether their needs are being met.
These reviews will enable SSA to take a closer look at how representative payees handle
beneficiaries’ funds, with the objectives of educating the representative payees and detecting and



Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)               B-1
deterring fraud. Under this initiative, SSA plans to contact thousands of beneficiaries and
representative payees.

As part of our financial-related audits of representative payees, we also plan to interview a
sample of Social Security and SSI beneficiaries who have a representative payee. In developing
our interview questions, we learned we need the Office of Management and Budget’s (OMB)
clearance of forms used to collect information from the public, and have proceeded accordingly.
These requirements are set forth in the Paperwork Reduction Act (PRA) of 1995 (44 USC 3501
et.seq.). The PRA minimizes the paperwork burden for individuals, businesses, institutions, and
other persons resulting from the collection of information by or for the Government. In addition,
the PRA ensures the collection of information is consistent with applicable laws, including those
related to privacy and confidentiality. The PRA covers identical questions posed to 10 or more
members of the public, whether voluntary or mandatory, whether written, electronic, or oral. The
PRA states that Federal agencies shall not conduct or sponsor the collection of information
unless they have been submitted to and approved by OMB. Also, individuals can refuse to
comply with the collection of information, without any penalty, if OMB approval has not been
obtained in accordance with the PRA.

During our review of SSA’s on-site review procedures, we found that SSA uses a set of
standardized questions to interview beneficiaries, and another set of standardized questions to
interview representative payees. However, SSA has not submitted these information collection
instruments to OMB for approval in accordance with the PRA. We are concerned that SSA has
not obtained OMB clearance for these interview questions, thereby undermining the PRA goals,
objectives, and protections granted to the public.

Recommendation:

   Ø SSA should obtain OMB approval for the beneficiary and representative payee interview
     forms it uses during its on-site reviews of representative payees.

Access to Representative Payees’ Financial Records

In planning our audits, we anticipated that some representative payees might refuse to provide us
their financial accounting records of benefits received and spent on behalf of Social Security and
SSI beneficiaries. Therefore, we reviewed relevant legal criteria as well as SSA policies and
procedures to determine whether representative payees are required to provide this information.
This included a review of:

   Ø   The Social Security Act and related regulations;
   Ø   Social Security publication – A Guide for Representative Payees;
   Ø   Application entitled, Request to be Selected as Payee, Form SSA-11-BK; and
   Ø   The Social Security Administration Representative Payee Report, Form SSA-623.

Based on our review of these criteria, we found that there is no explicit language stating that a
representative payee is obligated to allow SSA access to the representative payee’s financial


Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)                B-2
 records of benefits received and spent on the beneficiary’s behalf. Absent such language, there
is an increased risk that representative payees may refuse SSA access to such records. Also, we
believe this additional language may help to make representative payees more aware of the need
to keep better financial records of beneficiary receipts and expenditures because they are subject
to review by SSA. Consequently, SSA should modify the Request to be Selected as Payee (SSA-
11-BK) and the Social Security Administration Representative Payee Report (SSA-623) forms
accordingly. The language should make it clear that a representative payee agrees to allow SSA
access to the representative payee’s financial records of benefits received and spent on a
beneficiary’s behalf.

Recommendation:

SSA should modify the Request to be Selected as Payee and the Social Security Administration
Representative Payee Report with the following language:

“In consideration of being a representative payee, I hereby agree to make all records of any kind
related to the receipt and use of Social Security benefits for which I am representative payee
available to SSA employees or their authorized agents for inspection and copying.”

This language should be inserted in both forms immediately above the representative payee’s
signature line. This will reinforce the representative payee’s acknowledgment of the obligation
to provide access to records and provide additional support for SSA to enforce the obligation to
provide access to records.

We believe these recommendations will improve SSA’s oversight of the representative payee
program. We welcome your comments and request that you report to us any actions taken or
planned within 30 days. If you have any questions, please call me on extension 59700 or have
your staff contact Jim Klein on extension 59739.




                                                            /s/
                                                    Steven L. Shaeffer




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)           B-3
                                                                          Appendix C

Agency Comments




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
                                           SOCIAL SECURITY

MEMORANDUM


Date:      May 28, 2002                                                               Refer To:   S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General Draft Management Advisory Report, “Summary of
            Financial-Related Audits of Representative Payees for the Social Security Administration"
            (A-13-00-10065)—INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Dan Sweeney on extension 51957.

           Attachment:
           SSA Response




           Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “SUMMARY OF FINANCIAL-RELATED AUDITS
OF REPRESENTATIVE PAYEES FOR THE SOCIAL SECURITY ADMINISTRATION”
(A-13-00-10065)


Recommendation 1

Take appropriate follow-up actions to ensure the Rep Payees implement the 29 OIG
recommendations made from the 6 audits.


Comment

We agree. As reflected in the Agency’s October 2001 and December 2001 Quarterly
Recommendation Reports (released November 1, 2001 and February 21, 2002, respectively), the
regions involved in the individual reviews have already taken the necessary actions to resolve
most of the identified issues. We are continuing to monitor implementation of the remaining
recommendations through the Agency’s recommendation tracking process. We expect to release
the next update on implementation activities in the March 2002 Quarterly Recommendation
Report by the end of May 2002.

Recommendation 2

Pilot the use of stored value cards (SVC) or similar technology for Rep Payees.


Comment

We disagree, as we believe the use of SVCs would be very time-consuming and labor-intensive
for both large payee organizations and individuals serving multiple beneficiaries and for
representative payees serving only a small number of beneficiaries.

High-volume payees need to have cash or checks on hand to disburse to beneficiaries on a daily,
weekly or monthly basis for food and incidental needs. The use of SVCs would not be feasible
for these payees, since the payee is the only authorized individual or entity to use the card, and
the payees would have the burden of maintaining a large number of cards.

Additionally, many providers of services, such as landlords and small businesses, have no means
available to process SVC purchases. The payees would have to make ATM withdrawals from
the SVC account and deposit the funds into a separate account in order to write a check to the
provider.

Although OIG envisions an improved audit trail through the use of SVCs, such use may provide
less of an actual audit trail than now exists due to the payee’s need to obtain cash for the



Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)           C-2
beneficiaries' personal needs and for the vendors that would/could not accept payment from the
SVC.

We believe the OIG’s projected savings of $52 million (page 11) is overstated, as $52 million is
about the amount that the Agency spends, in total, on the entire representative payee accounting
process. Administratively, SSA would have a cost for issuing and mailing the cards, for
reviewing the reports to see if purchases are appropriate and for reconciling expenses that
couldn't be charged on the SVC against the cash withdrawals. It is also unlikely that the SVC
would cover all of the costs for all payees or charges to the beneficiaries (e.g., cash withdrawals
and credit charges that are not detailed/specific would still have to be accounted for, some costs
such as shared household costs would not be charged on the SVC, etc.).

As noted by OIG in the report, the elimination of the Representative Payee Report would require
a legislative amendment to the Social Security Act. Without this change and a provision
mandating the use of SVCs by all representative payees, the Administration would, in effect,
have two accounting processes to maintain.

Other Matters

As indicated in the report, we have revised the Request to be Selected Payee to include the
payee's agreement to explicitly authorize SSA access to the representative payee's financial
records. With the revision to the Request to be Selected Payee, the payee agrees explicitly to a
requirement implicit in our regulations. SSA has also told the payee in instructional material to
keep records and that SSA may inspect those records. Consequently, we do not believe a
corresponding change to the Representative Payee Report is necessary. We think the limited
space available on the Representative Payee Report can be better used to provide instructions on
how to complete the report.

On the issue of conserved funds, we are changing our instructions to require return of all
conserved funds to SSA. We expect to release the revised instructions by the end of June 2002.

Additionally, we are taking action to consolidate multiple entries in the Representative Payee
System (RPS). We expect to implement changes to RPS later this year that will prevent the
erroneous establishment of multiple entries for the same organization. After the RPS changes are
made, we will perform a match of potential problem entries and send alerts to the appropriate
field office for manual review and any necessary corrective action.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)            C-3
                                                                     Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   Jim Klein, Audit Manager, (410) 965-9739


Acknowledgments
In addition to the persons named above:

   Randy Townsley, Senior Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-00-10065.




Summary of Financial Related Audits of Representative Payees for SSA (A-13-00-10065)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Southern Audit Division                                            1
 Director, Financial Audit Division                                           1
 Director, Northern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Data Analysis and Technology Audit Division                        1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
              Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                             Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs;
2) investigative procedures and techniques; and 3) legal implications and conclusions to
be drawn from audit and investigative material produced by the OIG. The Counsel’s
office also administers the civil monetary penalty program.
